<html>
<title> - THE 2010 CENSUS: HOW COMPLETE COUNT COMMITTEES, LOCAL GOVERNMENTS, PHILANTHROPIC ORGANIZATIONS, NOT-FOR-PROFITS AND THE BUSINESS COMMUNITY CAN CONTRIBUTE TO AN ACCURATE CENSUS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
  THE 2010 CENSUS: HOW COMPLETE COUNT COMMITTEES, LOCAL GOVERNMENTS, 
PHILANTHROPIC ORGANIZATIONS, NOT-FOR-PROFITS AND THE BUSINESS COMMUNITY 
                  CAN CONTRIBUTE TO AN ACCURATE CENSUS

=======================================================================



                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2009

                               __________

                           Serial No. 111-71

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
58-133                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      PATRICK T. McHENRY, North Carolina
CAROLYN B. MALONEY, New York         LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   JOHN L. MICA, Florida
    Columbia                         JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois
STEVE DRIEHAUS, Ohio
DIANE E. WATSON, California
                     Darryl Piggee, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 2, 2009.................................     1
Statement of:
    O'Hare, William, senior fellow, Annie E. Casey Foundation; 
      Melanie Campbell, executive director, National Coalition on 
      Black Civic Participation; David Williams, Chair and 
      planning director, Gaston County Complete Count Committee, 
      Gastonia, NC; Yvette Cumberbatch, coordinator, NYC 2010 
      census, New York City government; and Mercedes Lemp Jacobs, 
      director, Office of Latino Affairs, Washington, DC, 
      government.................................................     7
        Campbell, Melanie........................................    26
        Cumberbatch, Yvette......................................    41
        Jacobs, Mercedes Lemp....................................    47
        O'Hare, William..........................................     7
        Williams, David..........................................    35
Letters, statements, etc., submitted for the record by:
    Campbell, Melanie, executive director, National Coalition on 
      Black Civic Participation, prepared statement of...........    28
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Cumberbatch, Yvette, coordinator, NYC 2010 census, New York 
      City government, prepared statement of.....................    43
    Jacobs, Mercedes Lemp, director, Office of Latino Affairs, 
      Washington, DC, government, prepared statement of..........    50
    O'Hare, William, senior fellow, Annie E. Casey Foundation, 
      prepared statement of......................................     9
    Williams, David, Chair and planning director, Gaston County 
      Complete Count Committee, Gastonia, NC, prepared statement 
      of.........................................................    37


  THE 2010 CENSUS: HOW COMPLETE COUNT COMMITTEES, LOCAL GOVERNMENTS, 
PHILANTHROPIC ORGANIZATIONS, NOT-FOR-PROFITS AND THE BUSINESS COMMUNITY 
                  CAN CONTRIBUTE TO AN ACCURATE CENSUS

                              ----------                              


                      WEDNESDAY, DECEMBER 2, 2009

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
room 2154, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, McHenry, Westmoreland, and 
Chu.
    Staff present: Darryl Piggee, staff director/counsel; Jean 
Gosa, clerk; Yvette Cravins, counsel; Frank Davis, professional 
staff member; Charisma Williams, staff assistant; Adam Hodge, 
full committee deputy press secretary; Leneal Scott, full 
committee IT specialist; Adam Fromm, minority chief clerk and 
Member liaison; and Chapin Fay, minority counsel.
    Mr. Clay. The Information Policy, Census, and National 
Archives Subcommittee of the Oversight and Government Reform 
Committee will now come to order.
    Good afternoon and welcome to today's hearing entitled, 
``The 2010 Census: How Complete Count Committees, Local 
Governments, Philanthropic Organizations, Not-for-Profits and 
the Business Community Can Contribute to an Accurate Census.''
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition. And, without objection, Members and 
witness may have 5 legislative days to submit a written 
statement or extraneous materials for the record.
    The purpose of today's hearing is to examine exactly what 
the title says: we want to explore how the contributions of all 
of you can contribute to an accurate census. That has to be our 
singular focus. We need the efforts and cooperation not only of 
you in this hearing room, but those of everyone. We need 
everyone to get this done. I am very passionate about this, as 
I am sure you are also.
    This hearing will focus on Complete Count Committees. The 
subcommittee will explore all aspects of the CCC, including, 
but not limited, to diversity of membership, activities, 
funding alternatives, and special initiatives in rural and 
urban settings. The Census Bureau's interaction and cooperation 
with local and county governments and stakeholders will be 
explored.
    Additionally, this hearing will track the efforts underway 
by local governments to actively encourage census 
participation. The subcommittee will also hear testimony on 
activities specific to ``Hard to Count Communities.'' The 
subcommittee is also interested in the lessons learned from 
past census activities in developing a ``best practices'' guide 
for future census outreach.
    We want to make sure that we work with the Bureau through 
the Regional Partnership Program. The program is credited with 
attributing to the success of the 2000 census. It is the 
Regional Offices of the Census Bureau that is key to your work 
on the ground. They are empowered to assist you in an 
incredible number of ways. Work closely with them.
    I thank all of our witnesses for appearing today and look 
forward to their testimonies. I now yield to the distinguished 
ranking member, Mr. McHenry, of North Carolina.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]
    [GRAPHIC] [TIFF OMITTED] T8133.001
    
    [GRAPHIC] [TIFF OMITTED] T8133.002
    
    Mr. McHenry. Thank you, Mr. Chairman, and thank you for 
your leadership on the census and all the other issues that you 
have been working on this Congress, including on Financial 
Services, which we both serve together on as well. I want to 
thank the panel for testifying today. In particular, my fellow 
resident of Gaston County, NC, Mr. Williams, for being here 
today and traveling to Washington.
    The Census Bureau is conducting an unprecedented outreach 
and awareness campaign for the 2010 decennial census. While its 
own advertising initiatives and partnership programs with 
various national organizations and institutions are certainly 
crucial to improving the overall response rate, the success of 
the count is largely dependent on the work being done in the 
trenches, in small communities and neighborhoods across 
America.
    By forming partnerships with local governments, civic 
groups, and religious institutions and cultural organizations, 
the Census Bureau is better able to navigate the social and 
physical landscapes of individual neighborhoods throughout the 
United States. These partnerships, known as Complete Count 
Committees, are comprised of local individuals with strong 
community standing who are best equipped to reach out to 
everyone in their area and make sure they get counted by the 
Bureau.
    Each county, town, or community is different from one 
another. The same cookie cutter approach to conducting outreach 
in promoting participation simply cannot work for every one of 
these communities. It is up to these Complete Count Committees 
to develop best practices for their own regions and communicate 
effectively with the Census Bureau in their successes and 
failures.
    Some States, such as my home State of North Carolina, are 
well ahead of the curve in the formation of Complete Count 
Committees for the 2010 census. Others have yet to take the 
initiative and begin preparations for local outreach efforts 
for the decennial census.
    It is my hope that today's hearing will provide this 
subcommittee with valuable insight into the progress being made 
to prepare the census and our communities to challenges yet to 
be faced and how Members of Congress and the Census Bureau can 
best assist local governments and civic organizations in 
preparing for the 2010 count.
    I want to thank the witnesses for testifying today and for 
coming to Washington, DC.
    And at this time, Mr. Chairman, if I can introduce my 
fellow resident of Gaston County, who is here before us today. 
He is in the middle of the panel before two nice ladies, and 
they will be nice to you, I hope.
    But David Williams is the Director of Planning and 
Development Services for Gaston County, NC. He has served in 
the department for 13 years and as its director for about the 
last 4 years. Mr. Williams is Chair of the county's Complete 
Count Committee for the 2010 census and also worked on the 
Complete Count Committee in 2010. The father of two daughters 
in Gaston County, he and his wife live in Gaston County. He is 
an Appalachian State graduate.
    Appalachian State, Mr. Chairman, they have actually had a 
couple championships, football championships. Three? Three in a 
row. Pretty amazing. We actually beat Michigan State, so 
thankfully neither one of us have any Michigan ties, so we are 
all right with that, right, Mr. Williams?
    So thank you, Mr. Williams, for testifying today and for 
making the trip.
    Mr. Clay. Thank you, Mr. McHenry, and thanks for that 
notable sports history, as well as introducing us to Mr. 
Williams and introducing him to the subcommittee.
    Let me also recognize the rest of the panel. We will first 
hear from Dr. William O'Hare, senior fellow of the Annie E. 
Casey Foundation since October 1993. Dr. O'Hare has directed 
the Kids Count Program at the Annie Casey Foundation. Dr. 
O'Hare has a Ph.D. in sociology demography and 30-plus years 
working in non-profits with a focus on disadvantaged Americans. 
Thank you for being here.
    Our next witness will be Ms. Melanie Campbell, executive 
director of the National Coalition of Black Civic 
Participation. In 2000, she was recognized as one of 
Washington, DC's, Top 40 Under 40 Emerging Leaders, which we 
note she is still under 40. [Laughter.]
    She currently serves on the Board of the Black Leadership 
Forum.
    Our fourth witness is Ms. Yvette Stacey Cumberbatch, 
coordinator of New York City 2010 census, New York City 
government. Ms. Cumberbatch previously served as chief of staff 
of the New York City Housing Authority, assistant New York 
State attorney general, and chief of staff special counsel to 
the city of New York deputy mayor for legal affairs. Thank you 
also for being here.
    Our final witness will be Ms. Mercedes Lemp, director, 
Office of Latino Affairs, Washington, DC, government. Ms. Lemp 
Jacobs served for 4 years as the executive director of 
Language, Etc., a non-profit organization providing English as 
a second language and the other services to mostly Latino 
immigrants. She serves as the director of the Office of Latino 
Affairs. Thank you also for being here.
    Welcome all of you to the hearing.
    It is the policy of the subcommittee to swear in all 
witnesses before they testify, and I ask all of you please 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated.
    Let the record reflect that all the witnesses answered in 
the affirmative.
    Each of you will have 5 minutes to make an opening 
statement. Your complete written testimony will be included in 
the hearing record. The yellow light will indicate that it is 
time to sum up; the red light will indicate that your time has 
expired.
    Dr. O'Hare, you may begin.

  STATEMENTS OF WILLIAM O'HARE, SENIOR FELLOW, ANNIE E. CASEY 
  FOUNDATION; MELANIE CAMPBELL, EXECUTIVE DIRECTOR, NATIONAL 
 COALITION ON BLACK CIVIC PARTICIPATION; DAVID WILLIAMS, CHAIR 
AND PLANNING DIRECTOR, GASTON COUNTY COMPLETE COUNT COMMITTEE, 
GASTONIA, NC; YVETTE CUMBERBATCH, COORDINATOR, NYC 2010 CENSUS, 
 NEW YORK CITY GOVERNMENT; AND MERCEDES LEMP JACOBS, DIRECTOR, 
      OFFICE OF LATINO AFFAIRS, WASHINGTON, DC, GOVERNMENT

                  STATEMENT OF WILLIAM O'HARE

    Mr. O'Hare. Thank you, Chairman Clay and Ranking Member 
McHenry. I am pleased to be here today to represent the Funders 
Census Initiative and the many foundations that are part of 
that collaborative effort. I am a demographer and a senior 
fellow at the Annie E. Casey Foundation, and also a consultant 
with the Funders Census Initiative. My involvement in the 
decennial census goes back several decades and includes 
experience as a data user, as well as a Foundation program 
officer who supported efforts to educate stakeholders on the 
importance of the census.
    I believe foundations have several important attributes 
that put them in a unique position to help the Census Bureau 
get an accurate and fair census. For example, foundation 
program offices are embedded in organizational networks which 
allow them to easily reach hard-to-count communities with a 
message about the importance of the census; they can provide a 
critical link between the Census Bureau staff and the trusted 
voices in local communities; they are in a good position to 
foster public-private partnerships like those involving the 
Census Bureau and local grassroots organizations; and, of 
course, foundations can often provide funding for activities to 
promote census awareness and participation in hard-to-count 
communities.
    I will focus my comments today on three topics: the 
development and mission of the Funders Census Initiative, FCI's 
activities related to the 2010 census, and, finally, some 
recommendations. I have submitted a longer written version of 
this testimony that provides more details regarding the points 
I raise here.
    The Funders Census Initiative is an ad hoc coalition of 
foundations and philanthropic community groups focused on 
getting an accurate and fair and complete 2010 census. 
Foundations have supported census projects in the past, but 
this is the first time they have formally shared strategies and 
information, pooled resources in an organized campaign. It 
represents a major step forward in terms of involvement of 
foundations in promoting the decennial census.
    FCI's mission is straightforward: to stimulate interest in 
the 2010 census among foundations and their grantees; to 
mobilize philanthropic resources for census outreach; and to 
facilitate census engagement through resource development, 
information sharing, strategic advice, and direct consultation. 
A wide range of foundations and affinity groups from national 
to community-focused are participating in the initiative, and 
we invite you to visit our Web site to learn more about FCI.
    In terms of the activities, over the past year, the Funders 
Census Initiative has launched a wide range of activities. They 
have established a Web site for Funders to share information 
and ideas and best practices; organized conference calls, 
Webinars for Funders and their grantees; coordinated Funders 
and grantee activity with the Census Bureau; analyzed the 
distribution of hard-to-count populations; and briefed 
journalists on several occasions.
    Foundations are supporting a Brookings Institution analysis 
of Federal programs that allocate funds based in whole or in 
part on census data, and this information has proved very 
useful in helping local communities understand why the census 
is important. The Initiative is also funding development of a 
free online interactive mapping tool to help pinpoint hard-to-
count areas in every part of the country.
    Foundations have invested millions of dollars in grants to 
organizations that are reaching deep into hard-to-count 
communities to underscore the message that the census is easy, 
it is important, and it is safe. Detailed examples of 
coordinated philanthropic efforts in Illinois, California, 
Massachusetts, and Long Island are provided in my written 
testimony.
    Let me highlight here one early and unprecedented effort 
that has served as a model for philanthropic investment and 
census over the past year. In many ways, it constitutes a best 
practices model.
    Led by the Chicago-based Joyce Foundation, Funders formed 
the Illinois 2010 Census Initiative and raised over $1.2 
million. They launched a Count Me In campaign. In late summer, 
following an RFP process, the collaborative announced 26 grants 
focused on boosting census response rates in the State's hard-
to-count communities.
    The Census Bureau is working hard, but they cannot 
accomplish their goal of a fair and accurate census in 
isolation. Census messages often resonate best when they are 
conveyed by trusted voices and through known organizations, and 
these are often grassroots, non-profit organizations. But these 
non-profit organizations need resources to fulfill this role. 
This is funding that the Census Bureau does not provide, and 
State and local governments cannot provide in sufficient 
amounts, particularly in these recessionary times. Philanthropy 
has helped fill this resource gap.
    Let me close with three recommendations as we look to our 
2020 census and beyond. First, that the Census Bureau should 
look beyond Complete Count Committees in ways to engage local 
communities in the census; second, that Congress should examine 
ways for the Census Bureau and the Federal Government broadly 
to provide financial resources for non-profit organizations 
engaged in census outreach, perhaps through a public-private 
partnership with philanthropy; and, third, recommend that the 
Census Bureau continue its partnership program throughout the 
decade to keep lines of communication open.
    Thank you for the opportunity to share my thoughts about 
philanthropy's role in supporting the 2010 census, our Nation's 
largest and most inclusive civic event. We at FCI look forward 
to working with the subcommittee in the future. Thank you.
    [The prepared statement of Mr. O'Hare follows:]
    [GRAPHIC] [TIFF OMITTED] T8133.003
    
    [GRAPHIC] [TIFF OMITTED] T8133.004
    
    [GRAPHIC] [TIFF OMITTED] T8133.005
    
    [GRAPHIC] [TIFF OMITTED] T8133.006
    
    [GRAPHIC] [TIFF OMITTED] T8133.007
    
    [GRAPHIC] [TIFF OMITTED] T8133.008
    
    [GRAPHIC] [TIFF OMITTED] T8133.009
    
    [GRAPHIC] [TIFF OMITTED] T8133.010
    
    [GRAPHIC] [TIFF OMITTED] T8133.011
    
    [GRAPHIC] [TIFF OMITTED] T8133.012
    
    [GRAPHIC] [TIFF OMITTED] T8133.013
    
    [GRAPHIC] [TIFF OMITTED] T8133.014
    
    [GRAPHIC] [TIFF OMITTED] T8133.015
    
    [GRAPHIC] [TIFF OMITTED] T8133.016
    
    [GRAPHIC] [TIFF OMITTED] T8133.017
    
    [GRAPHIC] [TIFF OMITTED] T8133.018
    
    [GRAPHIC] [TIFF OMITTED] T8133.019
    
    Mr. Clay. Thank you so much, Dr. O'Hare.
    Now we will hear from Ms. Campbell. You may proceed.

                 STATEMENT OF MELANIE CAMPBELL

    Ms. Campbell. Thank you Chairman Clay, for your leadership 
and for this opportunity to submit written and verbal testimony 
on behalf of the National Coalition on Black Civic 
Participation, as well as our Unity Diaspora Coalition [UDC].
    The Unity Diaspora Coalition is an unprecedented network of 
organizations working together in Black communities made up of 
African-Americans, African, Caribbean, and Afro-Latino 
leadership to forge a comprehensive agenda that includes: 
promoting, motivating, and mobilizing the Black population to 
fully participate in the 2010 decennial census; two, to 
advocate for a complete and accurate decennial 2010 census 
count; targeted efforts to protect the political power of the 
increasing numbers of those displaced by disaster and economic 
dislocation which are disproportionately Black and low income; 
ensuring equitable redistricting plans in key States with 
significant Black populations; and advocating for critical 
changes in the 2010 census, including adding country of origin 
for the Black population and changing methods of counting 
prisoners.
    Historically, the Census Bureau has under-counted America's 
most vulnerable population groups, including racial minorities, 
immigrants, children, and the poor, leading to inequality for 
political power, access to publicity, publically supported 
services and private sector investment in communities where 
these population groups live and work.
    The Census Bureau openly acknowledges it has to develop 
partnerships with the community-based groups to reach out to 
these and other hard-to-count populations. Effective 
partnerships can help address these looming factors in 2010 
outreach efforts: the significant growth of hard-to-count 
populations, escalating fear of government in immigrant 
communities, and displacement of families due to the housing 
economic crisis and natural disasters, such as Hurricanes 
Katrina and Rita.
    Further, the current economic crisis has added a new 
challenge, as my colleague just mentioned, and one of the 
things that we know that we have a concern about is the fact 
that, Congressman, I spent a lot of years in Atlanta, GA with 
the late Maynard Jackson's administration. For the 1990 census 
I was living in Atlanta and in 2000 was here, and many times 
the city governments would augment what happens, and that is 
not happening in many cases because of what is going on with 
the economy. So for the Black population, which is the hardest 
to count population of all demographic groups, yet the Blacks 
have accepted collectively that many of my colleagues are 
really not getting the kind of resources that we know we need 
to try to help augment that. So we are really, really glad that 
you have the philanthropic community here and really working 
with them to try to help bridge some of the gaps in resources 
for our community.
    The Unity Diaspora Coalition is made up of several key 
Black organizations. The national coalition is the convener; it 
is made up of the NAACP, the National Urban League, we have the 
Practice Project, Fair Count, Fair Share, and many, many other 
organizations that are listed within my written testimony. The 
Coalition, with our partners, are currently serving as 
effective national community partners for the Census Bureau--
many of us are national partners already--and have preexisting 
relationships and networks in the Black communities.
    I want to thank you, Congressman. I think it was March 2009 
that you came and hosted us for our census summit, as well as 
the Praxis Project hosted an organizing meeting in September 
2009. And from both of those discussions and many of the 
meetings we have been having to try to organize a cohesive 
coalition, we have three main recommendations. One falls under 
2010 census partnership program. Many of the Census Bureau's 
national local partners are not-for-profits. We have small 
budgets and have been adversely affected by the economic 
downturn, and we believe the Census Bureau should encourage 
reasonable allocation of resources to national partners.
    Recommendations that we also have for foundations and 
corporate funders include: linking historically under-counted 
groups to other funders; funding viral media campaigns; funding 
Black organizations and community organizing efforts for long-
term impact; identify non-cash assistance such as offering 
groups techs and technology support.
    A couple other things. I know I am almost at my time, but I 
think it is really important. You asked us to talk about 
forming effective partnerships and Complete Count Committees. 
One of the things that we know, the Black population, the 
diversity of the Caribbean African community is that we are 
really encouraging community Complete Count Committees to make 
sure, for the Black population, that it includes African-
American, Caribbean, Afro-Latino, and African populations so 
that really has a full effect.
    And I will wait for the rest of this for questions and 
answers. Thank you, sir.
    [The prepared statement of Ms. Campbell follows:]
    [GRAPHIC] [TIFF OMITTED] T8133.020
    
    [GRAPHIC] [TIFF OMITTED] T8133.021
    
    [GRAPHIC] [TIFF OMITTED] T8133.022
    
    [GRAPHIC] [TIFF OMITTED] T8133.023
    
    [GRAPHIC] [TIFF OMITTED] T8133.024
    
    [GRAPHIC] [TIFF OMITTED] T8133.025
    
    [GRAPHIC] [TIFF OMITTED] T8133.026
    
    Mr. Clay. Thank you so much for your presentation.
    Mr. Williams, you are recognized for 5 minutes.

                  STATEMENT OF DAVID WILLIAMS

    Mr. Williams. Thank you, Chairman Clay and Ranking Member 
McHenry and members of the Subcommittee on the Census for 
inviting me to testify before you today.
    Again, my name is David Williams. I am the director of 
planning for Gaston County, NC and also the Chair of the 
County's Complete Count Committee. On behalf of the Gaston 
County Board of County Commissioners and the Gaston County 
manager, I will discuss the activities of the Gaston County 
Complete Count Committee in my testimony. I have kept my 
written testimony in bullet form and will instead speak in more 
detail on those issues.
    Gaston County's philosophy and goal, No. 1, is to achieve 
an accurate count; count everyone, that includes urban and also 
rural areas. We are interested in also increasing response 
rates. In Gaston County, we have kind of an urban versus rural 
landscape and we have a certain amount of population in the 
urban area and also in the rural which makes us interested in 
counting the entire county and make sure we have strategies for 
both. Our municipal population estimate, according to the 
latest census, is 126,000; our rural population estimate now 
within the city limits is approximately 78,000.
    In census 2000, we developed a strategy using the Complete 
County Committee, and that committee was primarily made up of 
governmental staff. Some of the best management practices that 
we used for Gaston in 2000 created a slogan called I Count. We 
wanted to personalize this process to make sure that people 
understand that it wasn't so much about government wanting 
count; we needed accurate count. We wanted to make sure we 
wanted to involve them and they take ownership of the process.
    The Gaston County Commission funded approximately $16,000 
for marketing to show its commitment to this process. We also 
used the LUCA Program, which is the Local Update of Census 
Address Program. We examined that process and we discovered 
that there were missing addresses, so we had a technical side 
to it and we were able to reconcile those addresses and 
increase our count in Gaston County.
    We have also used our Long Range and Current Planning 
Program. With comprehensive planning and accounting, we often 
do long-range plans. It gives us an opportunity to get out and 
meet people and understand the community, and understand those 
gatekeepers and understand who those folks are. So when we are 
trying to determine what those hard-to-count areas are, we know 
the people to go to because of our Long Range and Current 
Planning Program.
    We also use our subdivision process. When developments come 
in to the county and we know they are large developments, we 
can keep an eye in terms of that development, where we are in 
the beginning, also where we are in terms of build-out. That 
allows us to make sure that we are not missing those new 
developments that are coming into the county, both urban and 
also suburban.
    In census 2000, we also created a video called I Count 
video. We were able to run that, Mr. Chairman, on our 
government access channel in our county, which covers a vast 
majority of our county and is seen by a lot of individuals 
through our county.
    Now, for census 2010, being involved in census 2000, 
obviously, I have had an opportunity to get some more 
experience. The census 2010 strategy, again, establishment of a 
Complete Count Committee. This committee is more diverse than 
in 2000 because it was made up primarily of governmental staff. 
This is made up of the community.
    So we feel like with a diverse committee we are going to be 
able to reach out and reach other people. Part of the 
committee, we have a technical outreach and diverse special 
populations managers at the county level so we can understand 
the system a whole lot better.
    The slogan for this 2010 census is It Counts to be Counted. 
We are also going to have a Census Awareness Week. That has 
been recommended to begin on February 2010, right before they 
begin to send out the census forms.
    We are also going to be assessing our response rates in 
urban and rural areas, and part of that, in our urban census 
track, our lowest response rate was 37 percent; the highest was 
76 percent. In our rural census track, the lowest was 43.5 
percent and the highest was 74 percent. We want to understand 
what that number means.
    One thing that I always employ to our committee, when we go 
out and talk to community groups and we say we missed 36 
percent, most folks can't identify what 36 percent is. We want 
to say that means a certain amount of people. And what we do is 
one person, I think, is estimated about $1,000, that is what 
our community could lose over a 10-year period. So that is 
something that we want to do when we are trying to get the word 
out; we want not personalize it and make sure that people 
understand.
    Mr. Chairman, if I can yield just a little bit more time, 
I'm running over.
    We are also working with our city and county planning 
directors. We have a luxury, I guess, of having 14 towns in our 
county, which allows us to go out to some of those rural areas 
to meet with those planning directors. We also are going to use 
all governmental buildings for census questions so people can 
go out to those centers.
    And, again, in closing, we are going to develop another 
census 2010 video to be shown on local government access 
channel. We are going to work with local newspapers and also go 
out to some of the corner grocery stores and those types 
things, get out where the people are. And we are going to have 
an art contest with some of the local schools.
    So some of the general concerns that we have is just at the 
urban and also rural areas are mistrust, and we think the way 
to do that and try to remedy some of that is through education 
and outreach.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Williams follows:]
    [GRAPHIC] [TIFF OMITTED] T8133.027
    
    [GRAPHIC] [TIFF OMITTED] T8133.028
    
    [GRAPHIC] [TIFF OMITTED] T8133.029
    
    [GRAPHIC] [TIFF OMITTED] T8133.030
    
    Mr. Clay. Thank you for your presentation. One note. Be 
sure you use Mr. McHenry in your video.
    Mr. Williams. OK. Yes, sir.
    Mr. Clay. Ms. Cumberbatch, you are recognized for 5 
minutes.

                STATEMENT OF YVETTE CUMBERBATCH

    Ms. Cumberbatch. Good afternoon, Chairman Clay and Ranking 
Member McHenry of the subcommittee. My name is Stacey 
Cumberbatch, again, and I was appointed on April 7th as New 
York City's 2010 census coordinator. I have over 20 years of 
experience in public service, philanthropy, and the law. Thank 
you again for this opportunity to talk about efforts underway 
by Mayor Bloomberg to complement and supplement the efforts of 
the U.S. Census Bureau to ensure a full and accurate count of 
all New Yorkers.
    First, I want to provide an overview of New York City's 
population. The challenges of conducting a complete count----
    Mr. Clay. Ma'am, would you pull the mic closer to you? That 
will work.
    Ms. Cumberbatch. OK, now it is on.
    I first want to provide an overview of New York City's 
population, the challenges of conducting a complete count in a 
city as dynamic and complex as New York, and what the city is 
doing to help address some of these challenges.
    First, as many of you know, New York City is the most 
ethnically diverse city in the United States, with a population 
of 8.36 million people as of July 2008. Over 3 million New 
Yorkers are foreign-born. About one-fifth of those folks, about 
600,000, have arrived in New York City since 2000. The top 10 
foreign-born populations hail from the Dominican Republic, 
China, Mexico, Jamaica, Guyana, Ecuador, Haiti, Trinidad and 
Tobago, India, and Colombia.
    While New York City is divided into five boroughs, almost 
58 percent of its population, two-thirds of all its immigrants 
actually reside in two boroughs, that of Brooklyn and Queens. 
That is about 4.9 million people.
    New York City has the largest Chinese population of any 
city outside of Asia. More people of Caribbean ancestry live in 
New York City than any city outside of the Caribbean. Over 2.27 
million Hispanics live in New York City, more than any other 
city in the United States. New Yorkers of African descent 
number 1.95 million, more than double the count in any other 
U.S. city.
    More than 200 languages are spoken in New York City, with 
almost half of New Yorkers speaking a language other than 
English. The top five languages are Spanish, Chinese, Russian, 
Italian, and French Creole.
    So the city's diversity has always been its strength, but 
it also poses a challenge to making sure that everyone is 
counted in next year's census. Recognizing the importance of 
this, the mayor of the city of New York created the NYC 2010 
Census Initiative.
    While the city's population exceeded 8 million for the 
first time in 2000, only 55 percent of New York City households 
mailed back a completed census form, much lower than the 
average national mail-in response rate of 67 percent.
    As stated earlier, Queens and Brooklyn are home to 58 
percent of the city's population, and those two boroughs had 
actually the lowest mail-in response rate of all of New York 
City. In fact, several neighborhoods in those boroughs had 
response rates lower than 40 percent.
    So we know there are many different reasons why people do 
not participate in the census. For example, families living 
double to tripled up in one family home may fear that 
information provided on the census form will be shared with the 
city agencies, such as buildings and fire departments. Some 
people simply don't know what the census is. Others don't know 
that this information is important for enforcing civil rights 
laws, including the Voting Rights Act. Many immigrants in the 
city are fearful that their undocumented status might be 
disclosed to Federal authorities if they complete a census 
form.
    So the city is trying to undertake a variety of initiatives 
to try to supplement, as I said, what the Census Bureau is 
doing. We are leveraging our city resources to get the word 
out, to build the relationships with our community leaders from 
various sectors.
    Some of these initiatives include working with our city 
agencies, such as City Planning. We have a mayor's Office of 
Immigrant Affairs, a mayor's Community Assistance Unit, the New 
York City Housing Authority, and other offices of elected 
officials to first identify hard-to-count groups and 
neighborhoods in the city and try to work to overcome some of 
the barriers to participation I mentioned earlier.
    We are working with five of the borough president's offices 
to create borough-based Complete Count Committees comprised of 
diverse stakeholders from every community. Three of our five 
borough presidents have already created those committees. We 
work with them; they are comprised of faith-based leaders, 
community-based organizations, business leaders, a variety of 
sectors.
    We are using our 311 system to receive inquiries regarding 
the census and provide timely updated information to the 
public. We have a Web site online, NYC.gov. It is basic 
information about the census. It is translated into 18 
languages. It also includes maps of every borough and how those 
particular neighborhoods did in the 2000 census, as well as 
pertinent links to other information.
    We are working with the Department of Education in New York 
City that is 1.1 million children are a part of our educational 
system, so we are introducing census in the schools.
    And I will sum up very quickly.
    Our work is ongoing. There are a lot of challenges to 
conducting a complete count in New York City given our 
diversity and our density, so it really requires really mapping 
out the city basically neighborhood by neighborhood to identify 
community leaders from all sectors and engage them. We are 
working closely with the regional Census Bureau, but, as you 
can imagine, New York City is very complex and it requires a 
real on-the-ground effort to get that word out.
    [The prepared statement of Ms. Cumberbatch follows:]
    [GRAPHIC] [TIFF OMITTED] T8133.031
    
    [GRAPHIC] [TIFF OMITTED] T8133.032
    
    [GRAPHIC] [TIFF OMITTED] T8133.033
    
    [GRAPHIC] [TIFF OMITTED] T8133.034
    
    Mr. Clay. Thank you so much for your presentation.
    Ms. Lemp, you are recognized for 5 minutes.

               STATEMENT OF MERCEDES LEMP JACOBS

    Ms. Lemp. Good afternoon, Chairman Clay, Ranking Member 
McHenry, members of the subcommittee. It is an honor to be here 
today, and I want to thank you for the opportunity to speak to 
you on such a vital issue to Washington, DC's, Latino 
community.
    My name is Mercedes Lemp. I serve as the director for the 
mayor's Office on Latino Affairs here in Washington, DC. The 
mission of the office is to improve the equality of life of the 
District's Latino population by providing community-based 
grants, advocacy, community relations, and outreach services to 
residents so they can have access to a full range of human 
services, education, health, housing, economic development, and 
employment opportunities. The population that is served by the 
office includes over 50,000 Latinos living and working in D.C., 
and they account for approximately 1 of every 10 D.C. 
residents.
    As part of our mission is to ensure appropriate resources 
are available to the Latino community, the 2010 census is of 
vital importance to our office.
    While Mayor Fenty and the District as a whole have launched 
the D.C. Counts Initiative, an aggressive campaign to ensure a 
full count of the city's residents, OLA has expanded on this 
effort knowing that the population we serve is especially hard 
to count and, at the same time, especially in need of the 
services and resources that will result from an accurate count.
    Many Latino families share homes or apartments and may not 
all be identified as residing in these shared dwellings. In 
addition, they are also more likely to move from place to place 
and have short-term living arrangements. Most are lower income, 
have little formal education; many have children and speak 
little English. Twelve percent of D.C.'s population is foreign-
born and 50 percent of the District residents speak a language 
other than English at the home.
    Washington, DC, has been identified as one of the hardest 
to count municipalities. Fifty-five percent of the D.C. census 
tracks are designated hard-to-count. With the Latino community, 
we face the challenges described above, in addition to a fear 
of government, immigration authorities, and a general distrust 
of government based on experiences from their home countries.
    Starting with our fiscal year 2009 performance plan, the 
office included partnering with the U.S. Census Bureau as a key 
initiative. My staff and I began communicating and working with 
the Washington, DC, census representatives in the fall of 2008, 
and since then have collaborated in several ways. We have 
worked with the Census to help reach out to potential D.C. 
Latino Census workers; we hosted an employment training and 
employment tests in our office, a location the community knows 
well and is comfortable with; we have hosted additional 
meetings and workshops at the office and now in the community 
as well.
    OLA and the census, as partners, have presented at several 
majority Latino resident apartment buildings to tenant groups 
about Complete Count Committees. We have planned a workshop for 
case managers and front-line staff of agencies and non-profits 
that served Latinos. A majority of Latino serving organizations 
in the city have served the community for many years and are 
seen as trusted resources.
    We have connected with the Congressional Hispanic Caucus 
Institute and will partner with them to reach out to Latino 
student associations across the city, and are working with 
Latino churches through the organization, the Downtown Cluster 
of Congregations. Our staff member in charge of educational 
outreach will focus a majority of her time for the next few 
months leading up to April 1st on educating Latino parents, 
English as a Second Language teachers and counselors, and 
setting up Complete Count Committees in Latino majority 
schools.
    Key to our success in communicating is culturally and 
linguistically appropriate materials. Outreach must be done 
using culturally and linguistically appropriate messages. 
Simple translations of materials will not suffice. Information 
must be developed specifically for the community, specifically 
targeting the education levels and particular situations for 
the community. With the financial assistance of the census, we 
created our own materials in this manner and they are now the 
centerpiece of our presentations and census talks we have been 
holding at community centers, clinics, schools, homeless 
service providers, street corners where men wait for work, etc.
    Both the materials and the presentations focus on a few key 
items beyond the dates, forms, and other essential information 
which is key to our community: the fact that this information 
will not be shared with any other agency under penalty of fine 
and potential incarceration to the census worker, the 
importance of the community services they currently utilize 
being adequately funded should an accurate count be done, and 
the importance of taking action through the simple 10-minute 
questionnaire. We have also stressed that this is an 
opportunity to stand up and be recognized in their new country 
and they are just as deserving to be counted and served by 
their new government as any other U.S. resident.
    As partners, OLA and the census have been able to better 
reach the community and more effectively deliver the message of 
the importance of the census. As a trusted member of the 
community working with community leaders and front-line 
workers, we have been able to give census access based on a 
trusted relationship that has been developed over 30 years of 
working with the D.C. Latino community.
    As director of the office, I also serve on the city's D.C. 
Complete Count Committee, in addition to chairing the Latino 
Complete Count Subcommittee. The subcommittee includes members 
of the Latino Community Development Commission, a commission 
made up of Latino leaders from the city, with the mission of 
advising the mayor and the office on Latino issues. My presence 
on the city's Complete Count Committee ensures that not only is 
my office focused on reaching the city's Latino community, but 
that the city's overall campaign also considers our Latino 
residents and the best way to reach them.
    Starting a relationship with the census early, working 
closely with community-based organizations and front-line 
staff, using culturally and linguistically appropriate 
materials, meeting the community where they are, and ensuring a 
Latino voice in the city's overall campaign we hope will lead 
to a full count of the D.C. Latino community.
    Again, I thank you for this opportunity and want to 
especially thank Rita Castillo and Ron Claiborne, both 
partnership specialists with the U.S. Census Bureau, for 
reaching out to us early in the process and continuing to do 
great work with us throughout the process. Thank you.
    [The prepared statement of Ms. Lemp follows:]
    [GRAPHIC] [TIFF OMITTED] T8133.035
    
    [GRAPHIC] [TIFF OMITTED] T8133.036
    
    [GRAPHIC] [TIFF OMITTED] T8133.037
    
    [GRAPHIC] [TIFF OMITTED] T8133.038
    
    [GRAPHIC] [TIFF OMITTED] T8133.039
    
    [GRAPHIC] [TIFF OMITTED] T8133.040
    
    [GRAPHIC] [TIFF OMITTED] T8133.041
    
    Mr. Clay. Thank you so much, Ms. Lemp, for your testimony, 
as well as the entire panel.
    We will now move to the question and answer period. I will 
operate under the 5-minute rule. I will begin with a panel-wide 
question.
    I have heard from my colleagues that represent rural areas, 
some that represent urban and suburban areas, that a lot of 
Americans are leery about giving information to the Census 
Bureau for conspiracy reasons, fearing that they will share 
this information with other Federal agencies. What is the best 
way, in your opinion, to communicate to people that the 
information that they provide to the Census Bureau is 
confidential? What is the best way to communicate? Anybody on 
this panel can take a shot at it. We can start here and just 
move. Mr. O'Hare, do you want to offer?
    Mr. O'Hare. I think one is showing people what the Census 
Bureau asks for. A lot of people have misunderstandings about 
what is really asked on the Census Bureau questions, so making 
clear that the kind of information asked is pretty simple and 
demographically focused is one thing.
    The other, I think, is talking about the Census Bureau's 
record that, for decades, they have collected this data with 
very few problems, and I think resting on that record is 
another way to kind of enforce this. But I would underscore 
this as maybe the biggest problem the Census Bureau faces in 
2010, different than 10 or 20 years ago.
    Mr. Clay. Ms. Campbell, do you have any thoughts?
    Ms. Campbell. The only thing I would add to that is it also 
has to do with who the messenger is in taking that into the 
community. I am also a small town girl from Mims, FL. In April 
I was home when the person knocked on my mother's door. He was 
an older gentleman of a different persuasion, doesn't live in 
the neighborhood. I happened to be home, just happened to be 
home for her to say, ``well, I thought you said''--you know, I 
talk to my mother a lot and, you know, ``I thought you said 
people were going to be hired from the community. He's not from 
our community.''
    So that is going to be very, very important. You keep say 
trusted voices, trusted voices. Who are those trusted voices? 
That is what is going to be able to break that. The churches 
are going to be able to break that. The conversations even our 
barber shops and beauty shops, the conversations about what 
this is, because since 9/11, quite frankly, there is a lot that 
has to do with what has happened with people's privacy, 
people's concern about the government. There are a lot of 
things out there.
    And I think also government being able to say it, but 
community leaders being able to reiterate that this is 
something you need to do, and that is why people--just like we 
do with the vote. ``Why do I need to vote?'' ``It doesn't have 
anything to do with me.'' Yes, it does. It has to do with the 
kind of message, making sure it is culturally specific and 
making sure the messengers are people that our people trust.
    Mr. Clay. Thank you.
    Mr. Williams, any comment?
    Mr. Williams. Yes, Mr. Chairman. I echo Ms. Campbell's 
comments and I would add to it I think that you asked a great 
question, and that is the kind of question I think that we, as 
individuals who work with the census, have to understand. So 
part of the reason why, part of our committee, we wanted a 
technical outreach manager and an outreach manager, and also a 
special and diverse populations manager, because we have urban; 
and what is done in urban may be a little different in the 
rural.
    So we have to understand the questions that each area 
faces, and sometimes I don't know some areas as hard to count 
in urban and/or rural, but we have to find those people who do. 
And that is the reason I was saying earlier, through our 
planning program, we can get to know who those gatekeepers are, 
because, like Ms. Campbell said, if you find out who those 
individuals are, they may trust that particular individual, and 
you have to go through that individual.
    Another point is I talk to a lot of my friends, for 
example, about the census. It is not that they mistrust; 
sometimes they just don't know. So what I do is--and they say, 
``David, you know, you are kind of passionate about this 
stuff,'' you know. I say, ``well, it is important because, No. 
1, if you don't return your census form and if you are not 
counted, we don't get enough money to fund schools, hospitals, 
and roads, for example. We don't get all the money that we get. 
So it takes away from our community.'' So I think when you 
personalize it and you connect with that individual, it is kind 
of like voting, like Ms. Campbell was talking about. If you 
don't vote, it is hard for you to be counted; and if you don't 
fill out your form, then do you count?
    Mr. Clay. Exactly. Thank you for that response.
    Ms. Cumberbatch.
    Ms. Cumberbatch. I would echo everything that has been said 
so far. It does come down to education, people understanding 
what it is, actually seeing the form; that it is not intrusive, 
that it is confidential, it does not ask citizenship, it does 
not ask income, two concerns of most people. Connecting it with 
the importance of driving Federal funding to our localities for 
a variety of programs, that is a way of personalizing it, about 
schools, roads, etc., having that conversation. Again, all of 
this has to be in the context of trust.
    Mr. Clay. Right.
    Ms. Cumberbatch. And it comes down to the trusted voices 
and is it--you know, in New York City, as I said, there are 
some instances where folks are living double, tripled-up in a 
one-family home. That home is only going to get one census 
form, but there are three families living there. So those other 
two families either have to take it upon themselves to go to a 
be counted site to get a form or the one family that is there 
has to include them on that form. But that is a risk to them 
because they are saying, ``well, who is going to get this 
information.'' ``Is local government going to find out that 
there are two other families that live here and it is really a 
one-family home?'' If I am in a family and I have a sibling who 
is undocumented, do I put them on the form? So all of those 
factors a person is in a decisionmaking process about what are 
the benefits to providing some basic demographic information, 
and am I really going to see those benefits, versus is there a 
risk about something in my household being disclosed that I 
don't want someone to know.
    So, again, it is about trusted voices, enrolling a lot of 
diverse stakeholders and leaders in our local communities. You 
can imagine New York City is very complicated. We are very 
diverse. We have to reach out broadly and deeply to get that 
message out, and at the end of the day we get the message out, 
but come mid-March, when the forms are out in households, that 
is the call to action, that is when the real work starts to get 
people to actually fill it out and mail it back.
    Mr. Clay. Thank you for that response.
    Ms. Lemp, how do we get them to overcome their fear of 
filling out the form?
    Ms. Lemp. Well, in addition to everything that was said, 
definitely the trusted voices in the Latino community, that is 
even more important; the churches, the non-profits that the 
community works with. And I think the message about the value, 
because you get this form and what is in it for you; and I know 
in D.C. the value per capita for the 2007 allocation of funds 
was $3,500. So are you willing to walk away from $3,500 that 
goes to a concrete example of an organization or a way that it 
is benefiting that community? So this church or this 
organization or your school, by filling out this simple form, 
it means $3,500.
    Mr. Clay. And with the Hispanic community in some parts of 
the country, they are very fearful about even talking to 
anybody, anyone from Government.
    Ms. Lemp. Right.
    Mr. Clay. So what is the best practices there, to send 
people from that community?
    Ms. Lemp. Absolutely. Absolutely. Right. So a mass campaign 
on TV is not going to work, it has to be one-on-one 
conversations with those leaders in the community that are 
trusted, basically what everybody has been saying over and 
over; and it is really a conversation, me talking to you, it is 
not even necessarily a poster or a flyer or whatever that might 
be; it is really just the one-on-one conversation, I am doing 
it, you should do it, and this is why.
    Mr. Clay. Thank you so much.
    I thank the whole panel for their responses.
    Mr. McHenry, you are recognized.
    Mr. McHenry. Thank you, Mr. Chairman.
    Thank you all for your testimony. Let's continue with this 
discussion here about mistrust of government or distrust, 
because I have a constituency where, in the mountains of 
western North Carolina, if you are not from that holler, as 
they would say it, you are not from here. And that may mean 
that you grew up 10 minutes down the road, literally 10 minutes 
down the road, and you are not from here. So, you know, you 
could take that same--what Ms. Campbell said, the person who 
knocked on your door and you say you are not from here. And we 
have a panel who obviously all five of you all are going to 
answer your census form, and if you are having that reaction, 
just imagine those people that have never responded.
    So if we could just start from Ms. Lemp, if you want to go 
from there and we will just go across the panel. If you can 
delve in a little bit more about what are the best practices 
for Complete Count Committees so that we can break through 
that.
    Ms. Lemp. And it is those conversations require Complete 
Count Committees because that is the only way, and it has to be 
Complete Count Committees, again, with the folks that have been 
dealing with these communities from the beginning. So a perfect 
example would be, in Washington, DC, there are a lot of non-
profits, a lot of clinics.
    Even with health care, a lot of the Latino community 
doesn't necessarily go to a traditional doctor, they are going 
to go to the clinics. That is who they trust; that is where 
they have been. So meeting them exactly where they are. And the 
Complete Count Committees allow you to have those 
conversations, spreading the work of the census throughout 
these Complete Count Committees and allowing many feet on the 
ground to have these conversations.
    Mr. McHenry. It is interesting. Mr. Williams' testimony, 
our discussions before, as head of the planning for the county, 
you know where the next subdivision is going in or a semi-
complete subdivision that wasn't on the map. What are those 
secrets that you could share with people, what you find that 
works? Ms. Cumberbatch and we will kind of keep going across. 
But I am looking for that something you found that kind of 
works that we can communicate to other people.
    Ms. Cumberbatch. Right. I mean, this is helpful because it 
is experiences from different areas of the country, rural, 
smaller cities, etc. You know, New York City is so large, so 
diverse, and obviously I have been looking for that magic thing 
to work in New York City. Honestly, there is not one magic 
thing.
    The approach that we have taken is to first try to map the 
city and understand how the city did in the last decennial 
census in terms of mail-in response rate, which is a good 
indicator on where there might be some challenges. But then to 
fast forward and look at some of the American Community Survey 
data that recently came out so we can see where new immigrant 
groups, because New York City is 40 percent foreign-born, where 
they have settled within the city in different communities so 
that we can anticipate that there might be some need to really 
do some serious outreach in those communities as well.
    So that was the first level of kind of analysis. And then 
trying to map out, OK, who is working within these communities 
in terms of community-based organization, faith-based leaders, 
elected officials, etc., to go out and speak to them about this 
is coming up, this is what went on in the past in the community 
in terms of mail-in response rate; here are a lot of new people 
that have settled in the area.
    What can we do now, early, to come together and bring our 
resources to leverage them to not only get the word out, but 
get the word out in a meaningful way to people, whether that is 
through their ethnic media, through ads, whether that is 
convening town hall meetings. But it is very labor intensive 
and it really does come down to that kind of organizing, 
mapping it out, and that kind of one-on-one conversation.
    The ad campaigns, newspapers, etc., are all important 
because that is an echoing of the message about this is an 
important thing to do. But, at the end of the day, people are 
going to trust because you have had a meaningful conversation 
with them about what they see in their future for their 
community and how this connects to that.
    Mr. McHenry. Mr. Williams.
    Mr. Williams. I would add everything that has been said and 
I would go back to the Complete Count Committee. One thing, as 
chair, that I am employing is that the volunteers, they need 
training and they have to understand. It is one thing to have a 
volunteer that will do anything that you ask them to do, but if 
they don't understand in terms of what community they are going 
into and how to approach, then they are probably not going to 
connect.
    So what we are employing is our Complete Count Committee to 
understand the landscape of Gaston County, try to understand 
different communities. Some are connected, some are sprawled, 
kind of spread out. May take a different approach. But they 
have to understand that so we will know what strategy to employ 
in particular locations.
    The one thing I always hit on, again, I hit on earlier, is 
someone mentioned a response rate, national response rate was 
67 percent. Now, if I am at the Y and I am playing basketball 
or working out, I am talking to one of my buddies, I say, ``you 
know, we had a 67 percent response rate.'' That is more than 
50. He might think that is a pretty good rate, when actually 
some people didn't get counted, and that is significant for 
Gaston County. So when you begin to say what does 1 percent 
mean, 1 percent means this in dollars. I think you alluded to 
it earlier. One percent means this in dollars. And when you 
begin to connect and explain it down to their level, see, as 
planners and people that are working with census, sometimes it 
is the jargon that we use and sometimes the language. We have 
to try to bring it down, and that is one thing we are going to 
approach. And we feel that if we do that it will make a 
connection.
    You mentioned in terms of language planning. We are going 
to use every resource that we have. We will use our GIS system, 
Geographical Information System; we will use our Building 
Inspections Department, not so much for them to go out and do, 
but tell us where some tough areas are. We will use our Gaston 
count, we use our police department to work with our community 
groups, community watch groups. They meet frequently, they know 
their community, and they really watch the community, and they 
can tell us, ``hey, this is going to be a tough area.''
    So I think it was mentioned earlier it is going to be a 
myriad approach, but that Complete Count Committee is critical. 
But you have to give them the tools and understanding of what 
they are up against, so when they go out they are ready to make 
a difference; and I think we will be able to do that.
    Mr. McHenry. Thank you.
    Ms. Campbell.
    Ms. Campbell. Well, three things. I mentioned in my 
testimony that we made sure that we built a coalition that 
represents the full Black population, with something that is a 
little bit more unique, at least in my experience. So we have 
the African Federation, for instance, who is focusing on the 
African communities, which are very diverse, and making sure 
that the Complete Count Committees and what he is doing is, 
first of all, training folks on the ground, but also being able 
to know when do you go have the conversation. In a lot of 
communities, you may have to have the conversation in the 
evening. You can't just do it at the church. If people have 
gathering places, where are those gathering places? When is the 
time to have those really, really personal conversations to 
really make a difference? The Institute of Caribbean Studies is 
leading our efforts in the Caribbean community, and the 
cultural specific, knowing when and where is really critical so 
the Complete Count Committees are able to--there is no cookie 
cutter answer.
    The other is the Black population, when it comes to the 
numbers, is Black men and children 10 and under. So women, make 
sure that your Complete Count Committee has a very strong 
target to mothers, to women who are the caregivers, even to get 
to men, because in many cases it is the mother, it is the wife, 
it is the significant other in the home who is actually the one 
who is going to fill that form out.
    So it is just making sure that the Complete Count 
Committees--we have something called the Black Women's 
Roundtable that is made up of diverse women. We are utilizing 
that group to help us create the messages in local community. 
But the bottom line is making sure there is a Complete Count 
Committee for the Black population, which is my focus. It is 
very diverse based on what is really going on and looking at 
those numbers in your community to know that. It is all about 
relationships, relationships, trusted voices, and making sure 
that you target women in a real, real way to help bridge the 
gap for the Black population.
    Mr. McHenry. Dr. O'Hare.
    Mr. O'Hare. Let me respond by talking about a meeting that 
I was at in North Carolina, and it kind of ties a couple things 
together here, I guess. In August, the Z. Smith Reynolds 
Foundation had a meeting just outside of Raleigh, where they 
brought together 40 or 50 people from around the State involved 
in non-profit organizations and grassroots organizations; and 
throughout the day one of the things that came up over and over 
again was the willingness, the eagerness of these groups to 
work on census issues, but the lack of resources to do it.
    And they are already pressed in so many ways that we all 
know about that it was a frustrating experience for all of us 
because the will was there but the resources were not. And I 
think it kind of underscores what all of us in the Census 
Bureau knows: what is really critical in getting people 
involved in this, getting people to respond is these local 
trusted voices and the organizations that they know.
    That brings me to the recommendation I left with, I guess, 
early on, is that I hope we can work together to find some way 
to get these local groups the resources they need to do this 
job. I don't know if it will do it in time for the 2010 census, 
but I hope we put it on the agenda for 2020.
    Mr. McHenry. Thank you.
    Mr. Clay. Thank you, Mr. McHenry.
    I would like to ask unanimous consent that one of our 
newest Members to the House, Representative Judy Chu of the 
Golden State of California, be allowed to sit on the panel 
today.
    Mr. McHenry. I have no objection, but the gentlelady is OK 
to come a little closer as well. [Laughter.]
    Mr. Clay. Thank you for that observation.
    Ms. Chu, you are recognized for 5 minutes.
    Ms. Chu. Well, since my things are here, maybe I will just 
stick it out here. But thank you so much. I appreciate it, Mr. 
Chair and Mr. Ranking Member.
    I especially wanted to come to this hearing because I did 
serve 6 years on the REAC Committee, the Race and Ethnic 
Advisory, for the years leading up to the year 2000 census. I 
know what challenges there are. They are great in terms of 
trying to combat the under-count. So I am so glad that you are 
here and working toward an accurate complete count for this 
year 2010 census.
    So let me ask this question to Dr. O'Hare or Ms. 
Cumberbatch. California has cut its census funding for outreach 
to $2 million, which is a significant decrease from $24.7 
million in 2000. I know that LA City funding has plunged by 
half. And these are the areas that are very difficult to count. 
In fact, LA is the No. 1 hard-to-count population in the 
country.
    Now, I know that in New York Mayor Bloomberg challenged the 
census counts and secured $77 million in additional funding for 
New York City alone. How was he able to get those funds and 
what will be the implications of the lack of funds in 
California and LA City?
    Ms. Cumberbatch. Just for clarification, so the city of New 
York, the mayor created the NYC 2010 Census Office as an office 
within the mayor's office, and our annual budget for this 
census, to help coordinate the city's activities and work with 
the regional Census Bureau, is actually $750,000. I wasn't 
around in 2000. Different administration. I can't say what it 
was then, but our budget for this cycle is $750,000.
    We currently have three staff people. I anticipate hiring 
two more staff. And then we have a pot of money that we are 
looking to figure out the best way to supplement and target 
either special events, targeted ad campaigns toward certain 
areas within New York City that are hard to count.
    Now, I will tell you that, based on our indices, New York 
City is probably the hardest to count city in the United 
States, with almost 71 percent of the census tracks being hard 
to count; and that has to do with, obviously, our large 
immigrant population. We are the most diverse city, but we are 
also a city of basically renters, a lot of singles; all the 
other indices around hard-to-count.
    So two things is, so $750,000 the city has committed 
directly for coordination of census activities. But that 
doesn't speak to the in-kind support that we have leveraged in 
other city resources using all of our agencies. So using our 
311 system, which is our basic information system, using our 
intranet system, using all the agencies' contracting 
opportunities.
    So many of our agencies contract with CBOs on the ground to 
provide social services. So we have used that network to 
disseminate information to directly enroll them in getting the 
word out to their various constituencies. So we haven't put a 
money value on all that activity, but it is significant.
    In addition, the State of New York put aside $2 million for 
census outreach throughout New York State. They put an RFP on 
the street back in September. They are evaluating proposals. 
Some share of that money will go to non-profits on the ground 
in New York City doing outreach work. I work with them, share 
all the maps about response rate, where ethnic groups have 
settled so they can, when they do those funding decisions, do 
them with some information about where there are going to be 
challenges.
    In addition to that, a number of private foundations of New 
York City have gotten together to coordinate some of their 
funding of census outreach work. So we are kind of pulling 
together in these difficult economic times a lot of different 
ways to leverage resources on the ground in these hard-to-
count, low response rate neighborhoods to increase the response 
rate in the first instance, and increase cooperation when folks 
do have to go--census takers do have to go door-to-door to 
collect that demographic information for those households.
    Mr. O'Hare. If I am correct, I think you may be talking 
about the challenge New York City made to the population, the 
post-census population estimates, so they raised the estimate 
and, therefore, New York City got more money----
    Ms. Chu. Yes, actually, that is was it was----
    Mr. O'Hare. OK. Well, I think that raises an important 
point because those estimates, which drive much of the $450 
billion that are distributed each year on census data, are tied 
to the census numbers from the beginning of the decade. So if 
places are under-counted, they get underestimated throughout 
the decade, and that is the challenge that New York won and got 
millions of dollars more because of it.
    Ms. Chu. Right.
    Mr. O'Hare. I will just mention, though, in California I 
know there has been an enormous decrease in the amount of money 
the State has made available. I just mentioned that some of the 
foundations like the California Endowment and the Grant Makers 
Concerned with Immigrants and Refugee, and the Border 
Philanthropy Partnership have pulled together a couple million 
dollars to try and fill in that gap, and in my written 
testimony there are some details about that, if you are 
interested.
    Ms. Cumberbatch. So let me just add. Thank you for 
clarifying. One thing about New York City is we have a 
population division within our City Planning Department. It is 
part of an agency, a division. A lot of localities do not have 
a staff of demographers and experts to be able to evaluate each 
year census data that comes out and to challenge it in terms of 
whether it is a low estimate or a high estimate. Similarly, our 
Population Division is currently engaged in the LUCA Process, 
the Local Update of Census Address list, to look at that 
address list to make sure that it is complete, there weren't 
deletions or the additions that the city had recommended 
earlier in the year are included.
    So all of those things go to obviously helping us get an 
accurate count, the technical aspects of getting an accurate 
count year to year. But, again, that is something that the city 
has always budgeted in terms of a population division from our 
city tax levy money, it is not--and that is an expertise that 
has existed in the city probably for the past 40 to 50 years, 
in terms of a department.
    Ms. Chu. Well, it is great that New York was able to put 
together those sources to be able to improve their count.
    Let me ask this other question that has to do with 
bilingual questionnaires. When I was on REAC, I was a big 
believer and pushed very hard to have bilingual questionnaires 
distributed to areas where people speak other languages, and I 
was very glad to see, this year, for this census, that the 
Spanish language questionnaire is put together and is going to 
be mailed to places with high Spanish-speaking populations. But 
I saw that for the other languages--Chinese, Korean, 
Vietnamese, and Russian--it is being translated, but not being 
mailed, and I think that is a huge deficit. What can you do to 
overcome this--my goal would be for year 2020 to change this so 
that they are mailed, because it is easy to determine where you 
have such a high population that they are primarily speaking 
that other language, and, thus, you can do better outreach for 
those populations.
    This is for anybody.
    Ms. Cumberbatch. Well, I totally agree with you. We 
actually know and have up on our Web site from 2000 the top 
five most spoken languages in New York City broken down by 
census track. So you can actually look at a map. Now, it has 
changed since 2000, but you can look at the map and you can see 
where there is a high density of Spanish speakers or Chinese 
speakers or Russian speakers, etc. So obviously, yes, it would 
make sense to say that, yes, they are mailing the form in 
Spanish to those census tracks with a high concentration of 
Spanish speakers, but they could easily, looking forward, look 
at other census tracks and other languages that are spoken in 
different localities, particularly New York City, and mail the 
form up-front to those households, in English as well; and that 
would cut back on the need for a lot of non-profits and 
community-based organizations to also then try to get the word 
out to those different communities and say, ``oh, if you need 
it in this language, we have it or we can help you get it and 
you can come in.'' I mean, that would be a huge improvement in 
the process of conducting the census for 2020, and I would look 
at an array of languages, because the data is there. The data 
is even there in more up-to-date terms in terms of the American 
Community Survey. So by the time 2020 comes, we are going to 
have a wealth of data from the past 10 years about languages 
that are spoken by census track to be able to do a decennial 
census that really, up front, deals with some of the language 
issues.
    Ms. Chu. Well, in fact, just to continue along those lines, 
it is my understanding that the American Community Survey is 
not translated in those same languages.
    Ms. Cumberbatch. Right. So that is an issue.
    Ms. Chu. It is a huge issue.
    Ms. Cumberbatch. That is a huge issue and that is something 
that has to be changed in order to get accurate, and 
particularly because it is a statistical sampling of the 
population. And in a place like New York City where, as I 
indicated, almost half of our population speaks a language 
other than English, it is a huge issue. So it does go to the 
accuracy of all the data that we obtain.
    So, yes, we would push for the American Community Survey 
being in language based on the information we know about New 
York City and all other jurisdictions, as well as helping, 
then, inform for the decennial census, since those forms are 
going to be mailed to every household, you know, where they 
should be in different languages or mailed in English and 
another language based on the density of foreign language 
speakers in that particular census track.
    Ms. Chu. I just hope that we remember the lessons for this 
census and push it for the year 2020, because I remember us 
pushing this for year 2000. Here we are 2010, but the lessons 
haven't been fully implemented.
    Mr. Clay. We certainly appreciate the issue that you raise 
and this subcommittee looks forward to your activism and 
interaction with it. Thank you, Ms. Chu.
    Ms. Chu. Thank you.
    Mr. Clay. I now recognize the gentleman from North Carolina 
for 5 minutes.
    Mr. McHenry. Thank you, Mr. Chairman. I know votes are 
coming up on the floor, so I will try to keep this short.
    Mr. Williams, in our discussions you talked about forums 
with the Complete Count Committee and then your relationships 
with the individual towns and cities within Gaston County. I 
know others in the room won't find this significant, but we 
have a county with 200,000 people in it--it is in the top 10 in 
North Carolina population-wise--and we have 14 different 
municipalities, which kind of blows your mind; whereas, one 
borough of New York is larger than the population of North 
Carolina. So we have a little comparison here. But the 
difficulties of that in terms of reaching out to these local 
governments, how do you overcome sort of that divide of cities 
and then the rural areas as well?
    Mr. Williams. Well, Congressman, we have what you call an 
Elected Officials Seminar, where all the elected officials in 
the county come together quarterly to talk about issues, and I 
think Gaston County is doing a good job in terms of trying to 
build those relationships from the elected side.
    Also, from the staff side, we have started a group called 
GCAMP, which the acronym stands for Gaston County and Municipal 
Planners Group, which is a diverse group of people, of 
planners, but also people from affordable housing, housing, 
police, also from emergency management. And that group has laid 
a foundation by which we can address issues such as the census. 
So that is how we work. So when something like this comes 
about, for example, in Cherryville or in Mount Holly, for 
example, we already have that connection.
    So when there are difficult areas in and around those 
municipalities, they have an urban feel, but they are not as 
large as Gastonia, for example, that is the largest 
municipality in Gaston County, for example. However, they have 
a connection also to some of those rural areas. So we can work 
through them. Again, it goes back to who knows the community 
the best. So we go to those planning directors and that city 
staff, and they can help us. So that is what works.
    I would mention something--I don't mean to digress, but 
something you were asking earlier I think was left out a little 
bit, and that is, also, we plan to use the school system. I 
mentioned an art contest and I had to kind of go through that 
quickly. But we see the school system as an opportunity to 
involve elementary, middle, and high school. So if we can get 
them involved, hopefully they can pass that information on to 
their parents, grandparents, relatives and say, ``hey, this is 
important for us to do.''
    But the number of towns can be tough in terms of planning 
and zoning, having different zoning regulations throughout the 
county. We worked on that process of trying to have one, but, 
at the same time, we have something such as significant and 
vital as the upcoming census. Having those guys on the ground, 
those different municipalities and those staff on the ground in 
those areas makes it a little easier for me, as Chair of the 
Complete Count Committee, to make sure that we don't leave 
areas out, be it urban and/or suburban, rural, etc.
    Mr. McHenry. Is that one way, working through the school 
system and working through the kids in getting the message out 
about the census, is that a way that you found to break through 
the language barrier that some in our community have?
    Mr. Williams. I think it will create an opportunity. I 
think so, it will create an opportunity to have that 
discussion, that conversation with school teachers and to talk 
to their students about the importance of census. So I think it 
would offer definitely the opportunity to enlighten their 
parents about it.
    In terms of someone speaking a different language, say the 
Latino population, you still may have some differences when the 
child goes home to talk to the parent if the language is 
primarily Spanish, so we are going to need to work on that. It 
is not going to be easy, but I think the school system is still 
just another tool that we can use to try to reduce the under-
count and increase the response rate.
    Mr. McHenry. Absolutely. I certainly appreciate it and I 
appreciate you all on the panel, Mr. Williams and everyone else 
on the panel for testifying. I know some of you are back for an 
additional time, but we appreciate your testimony and your 
assistance, especially with such a vital function of government 
as the census is, whether it is a large urban area or rural 
areas, and everywhere in between. So thank you for your efforts 
and we would certainly appreciate any guidance or feedback that 
you could give this subcommittee to make sure that the census 
is the best that we have ever had in our Nation's history. 
Thanks so much.
    Mr. Clay. Thank you, Mr. McHenry.
    Ms. Cumberbatch, you indicated in your written testimony 
that you have had some interaction with philanthropic 
organizations. Have you secured any significant financial 
commitments and can you expound in that in detail, what has 
been the role of philanthropic organizations in enumerating New 
York City?
    Ms. Cumberbatch. There are a number of foundations in New 
York City that have expressed an interest and put together some 
funding to support. They haven't announced those grants yet, 
but have put together and coordinated their funding to 
organizations that are going to do census outreach work.
    What the city of New York did in that regard was to host a 
briefing early on in June of funders in collaboration with 
those private funders, a briefing about the census, just basic 
information. We had the Census Bureau there, we had community-
based organizations that had worked on the 2000 census to talk 
about some of the challenges they had in doing outreach as a 
first step. So that gathering was a way to try to interest 
funders in obviously funding community-based organizations.
    Mr. Clay. This being tough economic times, I would assume 
it is a tough sale.
    Ms. Cumberbatch. This being tough economic times, while 
many private funders in New York City said yes, we see this as 
important, we see fantastic leverage--because for every person 
in New York City that is counted, it amounts to $3,000 a year 
in terms of Federal funding--that their funding is basically 
flat this year because their philanthropy is connected to the 
financial market. So because they have an obligation to current 
grantees in their ongoing work, whether that be social 
services, etc., it was hard to supplement, this year, some of 
those activities of those non-profits to specifically target 
census work. So it is a very limited pot.
    Mr. Clay. Dr. O'Hare, I assume other cities have also come 
to you and come to the Foundation to ask for financial support?
    Mr. O'Hare. Well, the Funders Census Initiative is kind of 
the model that has developed these kinds of activities. I think 
Chicago and the Joyce Foundation was probably the first to 
really take on this kind of mission, where they assembled more 
than $1 million from eight funders or so, and went through a 
process somewhat similar to New York. The same has happened in 
Los Angeles and some other cities. Certainly a move in the 
right direction. I think we are all feeling frustrated because 
the need is so big and our dollars are not nearly enough.
    Mr. Clay. Thank you for that response.
    Ms. Lemp, can you expound on your knowledge of a census 
boycott by some Latino groups and what additional problems does 
that create? Please detail your findings and explain what 
creative tactics your office is utilizing to combat that.
    Ms. Lemp. Right. The boycott was something that came out a 
few months back, and I have to say that with our contacts in 
the local communities--and connecting, just reiterating the 
message of this not being connected to any immigration issues 
and connecting the need to be counted to the funds and the 
resources that the city would gain from being counted. It 
really wasn't a big issue also because that message of 
boycotting was not a message from a local organization, so it 
wasn't necessarily a trusted voice in our D.C. Latino 
community. So it wasn't a big issue in Washington.
    Mr. Clay. Ms. Campbell, yesterday Census Director Groves 
and I, along with St. Louis city officials, rolled out a Census 
in the Schools Program. Do you believe this is an effective way 
to reach under-counted children? And please be specific.
    Ms. Campbell. Oh, very much so. One of the things that I 
mentioned about targeting women, targeting mothers, targeting 
caregivers, and not connecting the fact that what I also wanted 
to say was what we are focusing in on is developing not just--
for coalition 10 years ago, we actually did a poster contest 
that targeted middle school, elementary grade school. Now, the 
younger folks that are part of our coalitions are saying we 
have the social networking now. There are a lot of creative 
ways for young people to be able to express themselves in the 
process. So with the Census in Schools, working with community-
based organizations, as well as the school system, the Census 
in Schools Program, but there are also opportunities for the 
community-based organizations to participate. So we are really 
excited that, as a part of what we are doing to be able to have 
young people express themselves culturally around what does 
this mean, you know, how I count, if you will.
    The National Conference of Black Mayors has an I Count. 
There are several folks who have this I Count campaign. We have 
not talked to each other. We had a conference call yesterday 
with our coalition and two people on the call, who had not 
talked to each other but were focusing on Black men and the 
conference, both had I Count campaigns. So there is something 
about I Count and the change message, especially with the young 
people being a part of this change era we are in, to be able to 
express that. So part of what we are doing this year is adding 
a part of our Census in Schools efforts to utilize social 
networking, to utilize Facebook, to utilize the YouTube and all 
the other social mediums that are out there for folks to be 
able to express. So we saw what could happen in the last 
election. And that is something that is low cost and people are 
able to express themselves creatively. And that same 81-year-
old mother was a school teacher for 50-plus years, so 
understanding how that impacts and how teachers have an impact 
on young lives and the parents, more specifically, is 
definitely one of the No. 1 things we are going to be doing.
    Mr. Clay. Thank you so much.
    Dr. O'Hare, did you have something to say?
    Mr. O'Hare. Yes. Could I add a comment on the Census in 
Schools Program, which I wholly endorse, but I think it is 
important to recognize, when talking about children, which is 
the Casey Foundation's focus, is that the age group that has 
the highest under-count rate based on the 2000 census was 
preschoolers. Kids under age 5 had an under-count rate of 4 
percent higher than people in their twenties and higher than 
school-aged kids. So I am worried that somehow we think we have 
taken care of all the children under-counting by focusing on 
school-aged kids, and it is critical to remember that is not 
the group that is missed the most.
    Mr. Clay. Thank you for that point.
    Mr. Williams, I am going to let you have the final word. 
Have you interacted with your regional and local census 
director or your regional director? Are you familiar with who 
they are? Have they come by to visit your Complete Count 
Committees?
    Mr. Williams. Mr. Chairman, they have. They have come by. 
We have a pretty good relationship with our local bureau 
partnership specialists is what they are called. They actually 
came to our first Complete Count Committee meeting; they made a 
presentation, they made all the material, handed that 
information out.
    And, again, in Gaston County we try to set a standard in 
2000 with the census, and as a result of it, the Census Bureau 
felt like we had done a pretty good job in terms of promotion, 
so we already had that relationship built up from 2000. So when 
this started kicking off a couple years ago, they were ready to 
call us and see what are some of the things we can offer to 
help them out. So, to answer your question, yes, we do have a 
relationship with them.
    Mr. Clay. Very good.
    Let me thank the entire panel for your testimony today and 
thank you for attempting to make ``census 2010'' the most 
successful that this country has experienced. I appreciate your 
work in this area.
    That concludes this hearing. Thank you.
    [Whereupon, at 4:22 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
